2311 Douglas Street
Omaha, Nebraska 68102-1214

@OQCKLE

egal Briefs E-Mail Address:
L 8 ri contact@cocklelegalbriefs.com

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-1257

MARK BRNOVICH, IN HIS OFFICIAL CAPACITY
AS ARIZONA ATTORNEY GENERAL, ET AL.,
Petitioners,

v.
DEMOCRATIC NATIONAL COMMITTEE, ET AL.,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 1st day of June, 2020, send out from
Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF AMICI CURIAE ELECTION INTEGRITY PROJECT
CALIFORNIA, INC. AND ELECTION INTEGRITY PROJECT ARIZONA, LLC IN SUPPORT OF PETITIONERS in the
above entitled case. All parties required to be served have been served by third-party commercial carrier for delivery within 3
calendar days. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:

MICHAEL J. O’NEILL RICHARD P. HUTCHISON

Counsel of Record LANDMARK LEGAL
MATTHEW C. FORYS FOUNDATION
LANDMARK LEGAL FOUNDATION 3100 Broadway
19415 Deerfield Ave. Suite 1210
Suite 312 Kansas City, MO 64111
Leesburg, VA 20176 816-931-5559
703-554-6100
703-554-6119 (Facsimile) Attorneys for Amici Curiae

mike@landmarklegal.org

Subscribed and sworn to before me this Ist day of June, 2020.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

\

Queda h, hk

Affiant 39803

GENERAL HOTARY-State of Hobraska Kense. f
Jd. Gi
walle cst wa) Ac 0. ooo

Notary Public

 
 

Attorneys for Petitioners

Oramel Horace Skinner
Counsel of Record

Arizona Attorney General's Office
2005 N. Central Ave.
Phoenix, AZ 85004

o.h.skinner@azag.gov

Party name: Mark Brnovich, et al.

602-542-8327

 

 

Attorneys for Respondents

Jessica Ring Amunson
Counsel of Record

Jenner & Block LLP

1099 New York Avenue NW
Suite 900

Washington, DC 20001

JAmunson@jenner.com

Party name: Katie Hobbs, Arizona Secretary of State

202-639-6023

 

 
